          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


 Evaluation   Report




        EPA Actively Evaluating
        Effectiveness of Its
        BP and Enbridge Oil Spill
        Response Communications

        Report No. 11-P-0273

        June 23, 2011
Report Contributors: 	                             Laurie Adams
                                                   Dan Carroll
                                                   Jerri Dorsey
                                                   Jeffrey Harris
                                                   Denton Stafford




Abbreviations

EPA           U.S. Environmental Protection Agency
ERT           Environmental Response Team
NCP           National Contingency Plan
NRT           National Response Team
OIG           Office of Inspector General
OSC           On-Scene Coordinator
RRT           Regional Response Team
USCG          U.S. Coast Guard


Cover photos:	 from left: Water warning near Battle Creek, Michigan (EPA OIG photo);
               air sampling station near Port Fourchon, Louisiana (EPA photo).




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                             11-P-0273
                                                                                                        June 23, 2011
                        Office of Inspector General


                        At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review 	             EPA Actively Evaluating Effectiveness of Its
The purpose of this review was
                                     BP and Enbridge Oil Spill Response
to determine what actions the        Communications
U.S. Environmental Protection
Agency (EPA) took to                 What We Found
communicate oil spill risk to
affected communities near the        We concluded that EPA is actively evaluating the effectiveness of its spill
Gulf of Mexico and Michigan’s        response communications activities. Because we found that the Agency has
Kalamazoo River.                     several ongoing efforts focused on lessons-learned activities, we did not
                                     continue into a field work phase of this assignment to evaluate the
Background                           effectiveness of the Agency’s communication efforts. We are closing this
                                     assignment upon issuing this report.
When a major oil spill occurs
in the United States,                The results and the interpretation of all data collected by EPA at the BP and
coordinated teams of local,          Enbridge oil spills were shared with state and local decisionmakers, as well as
state, and national personnel        the impacted communities, in a number of ways. EPA developed Quality
are called upon to help contain      Assurance Sampling Plans to collect further data on the chemical
the spill, clean it up, and ensure   contamination in air, water, and sediments. EPA communicated with the
that damage to human health          general public via press conferences, fact sheets, community meetings, and the
and the environment is               Internet and social networking media. Data results and interpretations were
minimized. EPA’s emergency           posted on the Internet. The results were also communicated to local and state
response played an integral role     decisionmakers to inform their decisions on actions such as voluntary
in two recent oil spills. On         evacuations and drinking water advisories to protect public health. In addition,
April 20, 2010, the Deepwater        EPA issued a request for proposals for grants totaling up to $300,000 to further
Horizon mobile offshore              communication efforts in the environmental-justice-designated communities
drilling unit exploded, resulting    impacted by the BP oil spill. EPA’s response communications assisted states
in an oil spill in the Gulf of       and other federal agencies in understanding the immediate and long-term
Mexico, known as the BP oil          impacts of oil contamination.
spill. On July 26, 2010, the
Enbridge oil spill occurred,         EPA is completing lessons-learned exercises to evaluate the effectiveness of its
releasing oil into Michigan’s        response to both oil spill incidents. These retrospective reviews address, in
Kalamazoo River.                     part, the effectiveness of EPA’s communication strategy and activities. The
                                     lessons-learned activities will allow the Agency to identify areas of success, as
For further information,
                                     well as areas that could be improved upon in responding to future emergency
contact our Office of                situations.
Congressional, Public Affairs
and Management at                    We make no recommendations in this report, and the Agency did not formally
(202) 566-2391.                      respond to a draft version of this report. A representative of EPA’s Office of
The full report is at:               Emergency Response did state that the report was a good summary of spill
www.epa.gov/oig/reports/2011/        response, coordination, and followup actions.
20110623-11-P-0273.pdf
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL



                                          June 23, 2011

MEMORANDUM

SUBJECT:	 EPA Actively Evaluating Effectiveness of Its BP and Enbridge Oil Spill
          Response Communications
          Report No. 11-P-0273

FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:	           See Below

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report describes what the OIG found.
This report represents the opinion of the OIG and does not necessarily represent the final EPA
position. Final determinations on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures.

The estimated direct labor and travel costs for this report are $229,777.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
However, if you submit a response, it will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe
PDF file that complies with the accessibility requirements of Section 508 of the Rehabilitation
Act of 1973, as amended. The final response should not contain data that you do not want to be
released to the public; if your response contains such data, you should identify the data for
redaction or removal. We have no objections to the further release of this report to the public.
We will post this report to our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum at
(202) 566-0832 or najjum.wade@epa.gov, or Jeffrey Harris at (202) 566-0831 or
harris.jeffrey@epa.gov.


Addressees:
Mathy Stanislaus, Assistant Administrator for Solid Waste and Emergency Response
Gwendolyn Keyes Fleming, Regional Administrator, Region 4
Susan Hedman, Regional Administrator, Region 5
Al Armendariz, Regional Administrator, Region 6
EPA Actively Evaluating Effectiveness of Its                                                                                 11-P-0273
BP and Enbridge Oil Spill Response Communications


                                      Table of Contents 

   Purpose........................................................................................................................   1


   Background .................................................................................................................      1


           Federal Emergency Response to Major Oil Spills................................................                            1

           Risk Communication During an Oil Spill...............................................................                     2

           Recent Oil Spill Incidents .....................................................................................          2


   Scope and Methodology.............................................................................................                3


   Results of Review .......................................................................................................         4


           EPA Communicates With State and Local Decisionmakers ................................                                     5

           EPA Communicates With Impacted Communities ...............................................                                5

           Lessons-Learned Activities Conducted by EPA ...................................................                           6


   Agency Comments and Office of Inspector General Evaluation............................                                            6


   Status of Recommendation and Potential Monetary Benefits................................                                          7




Appendix
   A       Distribution .........................................................................................................    8

Purpose
            The purpose of this review was to determine what actions the U.S. Environmental
            Protection Agency (EPA) took to communicate oil spill risk to communities near
            the Gulf of Mexico and Michigan’s Kalamazoo River.

Background

            Federal Emergency Response to Major Oil Spills

            When a major oil spill occurs in the United States, coordinated teams of local,
            state, and national personnel are called upon to help contain the spill, clean it up,
            and ensure that damage to human health and the environment is minimized. In the
            United States, the system for organizing responses to major oil spills is called the
            National Response System. There are three components of the National Response
            System: (1) on-scene coordinators (OSCs), (2) the national response team (NRT),
            and (3) regional response teams (RRTs).

                   On-Scene Coordinator: The OSC is the federal official responsible for
                   monitoring or directing responses to all oil spills and hazardous substance
                   releases reported to the federal government. The OSC coordinates all
                   federal efforts with, and provides support and information to, local, state,
                   and regional response communities. In general, the OSC’s key
                   responsibilities during and after a response to a hazardous substance
                   release or an oil spill are (1) assessment, (2) monitoring, (3) response
                   assistance, and (4) evaluation.

                   National Response Team: The NRT is an interagency group that
                   provides guidance prior to an incident and, when requested, technical and
                   financial assistance during an incident. EPA chairs the NRT, and the U.S.
                   Coast Guard (USCG) serves as the vice chair.

                   Regional Response Teams: RRTs are interagency groups that consist of
                   representatives from federal, state, and local governments. They conduct
                   preresponse planning and preparedness activities, as well as coordinate
                   and provide advice during response actions. The two principal components
                   of the RRT are 13 standing teams, which provide regionwide support on
                   communications, planning, coordination, training, evaluation, and
                   preparedness; and incident-specific teams for which participation depends
                   on the technical nature and location of the incident.

            The purpose of the National Oil and Hazardous Substances Pollution Contingency
            Plan, also known as the National Contingency Plan (NCP), is to provide the
            organizational structure and procedures for preparing for and responding to
            discharges of oil and releases of hazardous substances, pollutants, and
            contaminants. It was developed to ensure that the resources and expertise of the


11-P-0273                                                                                       1
                   federal government would be immediately available for major incidents that
                   require federal or regional response. The NCP provides the federal government
                   with a framework for notification, communication, and responsibility for oil spill
                   response. It creates and implements a Unified Command, which coordinates the
                   responsible party with federal and state officials in the spill response. The NCP
                   also established additional technical and support response teams: (1) the Coast
                   Guard National Strike Force, (2) the Coast Guard Public Information Assist
                   Team, (3) the National Oceanic and Atmospheric Administration’s Scientific
                   Support Coordinators, (4) National Resource Trustees, and (5) the EPA
                   Environmental Response Team (ERT).

                   The ERT is a group of EPA technical experts who provide around-the-clock
                   assistance at the scene of hazardous substance releases, offering expertise in such
                   areas as treatment, biology, chemistry, hydrology, geology, and engineering. The
                   ERT provides support to the full range of emergency response actions. The ERT
                   can provide support for site assessments, health and safety issues, action plan
                   development, and contamination monitoring.

                   Risk Communication During an Oil Spill

                   During oil spill recovery, the NCP states that it is imperative to give the public
                   prompt, accurate information on the nature of the incident and the actions
                   underway to mitigate the damage. According to the Centers for Disease Control
                   and Prevention, crisis and emergency risk communication combines the urgency
                   of disaster communication with the need to communicate risks, benefits, and
                   needed action to stakeholders and the general public. Typically, communications
                   during an emergency response focus on quickly disseminating information to
                   warn of the potential threats and explain the protective measures being taken. This
                   communication allows for the communities to be aware of any dangers or
                   potential health effects possible due to the toxicity of the oil spill.

                   Recent Oil Spill Incidents

                   Gulf of Mexico

                   On April 20, 2010, the Deepwater Horizon mobile offshore drilling unit exploded,
                   resulting in a severe fire. Two days later, the unit sank and began releasing several
                   thousand barrels of crude oil per day into the Gulf of Mexico. The Secretary of
                   the U.S. Department of Homeland Security classified this oil discharge as a “Spill
                   of National Significance”1 and designated the USCG Commandant as the



1
 A “Spill of National Significance” is a spill that, due to its severity, size, location, actual or potential impact on the
public health and welfare or the environment, or the necessary response effort, is so complex that it requires
extraordinary coordination of federal, state, local, and responsible party resources to contain and clean up the
discharge.


11-P-0273                                                                                                                 2
                  National Incident Commander.2 The USCG led the federal environmental
                  response actions in the coastal zone and oversaw all response operations,
                  including those of BP. EPA assigned some of its staff to the Unified Command
                  and some to the local incident command posts. EPA also developed monitoring
                  and assessment plans for surface and subsurface dispersant application, and
                  provided technical assistance, air monitoring, and water quality sampling at
                  several locations in Louisiana, Mississippi, and Alabama to assist in the oil spill
                  response. EPA’s Crisis Communication Plan establishes the process for
                  communicating environmental information to the public and coordinating public
                  information among EPA field operations, regional offices, and headquarters
                  during a response to a national significant incident. The plan indentifies the roles
                  and responsibilities of EPA communication personnel.

                  Kalamazoo River

                  Enbridge Energy Partners reported a 30-inch pipeline rupture on July 26, 2010,
                  near Marshall, Michigan. The release, estimated to be 819,000 gallons, entered
                  Talmadge Creek and flowed into the Kalamazoo River, a Lake Michigan
                  tributary. On July 27, 2010, EPA issued a legal order under the authority of the
                  Clean Water Act directing Enbridge to conduct removal actions. As the federal
                  OSC, EPA Region 5 was in charge of the response to the Enbridge oil spill. EPA
                  assumed a leadership role in the Unified Command and mobilized an Incident
                  Management Team made up of federal, state, and local agencies. EPA provided
                  air monitoring, sediment sampling, and water quality sampling.

Scope and Methodology

                  We conducted this evaluation in accordance with generally accepted government
                  auditing standards. Those standards require that we plan and perform the
                  evaluation to obtain sufficient, appropriate evidence to provide a reasonable basis
                  for our findings and conclusions based on our objectives. We believe that the
                  evidence obtained provides a reasonable basis for the results reported based upon
                  our objectives. Because we found that the Agency has several ongoing efforts
                  focused on lessons-learned activities, we did not continue into a field work phase
                  of this assignment to evaluate the effectiveness of the Agency’s communication
                  efforts. We performed our evaluation from September 2010 through June 2011.

                  Our evaluation included two recent oil spills in which EPA’s emergency response
                  played an integral role. The two oil spills covered in our review were in the Gulf
                  of Mexico, known as the BP oil spill, and in Michigan’s Kalamazoo River, known
                  as the Enbridge oil spill. To determine what actions EPA took to communicate oil
                  spill risk to communities near the Gulf of Mexico and the Kalamazoo River, we
                  met with staff from EPA Regions 4, 5, and 6, in Atlanta, Georgia; Chicago,
2
  According to the NCP, the National Incident Commander was to “assume the role of the [federal OSC] in
communicating with affected parties and the public, and coordinating federal, state, local, and international
resources at the national level.”


11-P-0273                                                                                                       3
            Illinois; and Dallas, Texas, respectively. We also met with headquarters staff from
            the Office of Water; Office of Air; Office of Solid Waste and Emergency
            Response, including the Office of Emergency Management; Office of Compliance
            and Enforcement Assurance, including the Office of Environmental Justice; and
            Office of External Affairs and Environmental Education. Additionally, we
            attended a community update meeting in Battle Creek, Michigan, which was
            conducted primarily by EPA officials.

            We also analyzed EPA planning and implementation documents. We reviewed
            applicable laws and regulations. Specifically, we reviewed the Crisis
            Communication Plan, the Clean Water Act, the Clean Air Act, the National
            Contingency Plan for Oil Spills, and the Oil Pollution Act of 1990. We also
            reviewed guidance documents related to communicating risk as well as the
            following past audit reports in this area:

               	 National Commission on the BP Deepwater Horizon Oil Spill and
                  Offshore Drilling, Report to the President: National Commission on the
                  BP Deepwater Horizon Oil Spill and Offshore Drilling, January 2011.
               	 EPA Office of Inspector General, EPA Should Continue to Improve Its
                  National Emergency Response Planning, Report No. 08-P-0055,
                  January 9, 2008
               	 EPA Office of Inspector General, Lessons Learned: EPA’s Response to
                  Hurricane Katrina, Report No. 2006-P-00033, September 14, 2006
               	 EPA Office of Inspector General, EPA’s Response to the World Trade
                  Center Collapse: Challenges, Successes, and Areas for Improvement,
                  Report No. 03-P-00012, August 21, 2003

Results of Review

            We concluded that EPA is actively evaluating the effectiveness of its spill
            response communications activities. We are closing this subject assignment upon
            issuing this report. The results and the interpretation of all data collected by EPA
            at the BP and Enbridge oil spills were shared with state and local decisionmakers,
            as well as the impacted communities, in a number of ways. EPA developed
            Quality Assurance Sampling Plans to collect data on the chemical contamination
            in air, water, and sediments and provided technical assistance, air monitoring, and
            water quality sampling in response to both oil spills. EPA communicated with the
            general public via press conferences, fact sheets, community meetings, and the
            Internet and social networking media. Data results and interpretations were posted
            on the Internet. The results were also communicated to local and state
            decisionmakers to inform their decisions on actions such as voluntary evacuations
            and drinking water advisories to protect public health. In addition, EPA took steps
            to issue grants to assist in communication efforts in the environmental-justice-
            designated communities impacted by the BP oil spill. EPA’s response
            communications assisted states and other federal agencies in understanding the
            immediate and long-term impacts of oil contamination.


11-P-0273                                                                                      4
            EPA Communicated With State and Local Decisionmakers

            During the recent oil spill incidents, EPA conducted sampling and monitoring of
            air, water, and sediment, and these results were communicated to local and state
            decisionmakers who in turn made the decisions regarding actions to protect public
            health (e.g., voluntary evacuations, drinking water advisories, and beach
            closures).
            Specifically for the BP oil spill, EPA’s monitoring and sampling activities
            provided the USCG, states, and local governments with information about the
            potential impacts of the oil spill. EPA collected samples along the shoreline and
            beyond to test for chemicals related to oil and dispersants in the air, water, and
            sediment; supported and advised USCG efforts to clean the oil and waste from the
            shoreline; and closely monitored the effects of dispersants in the subsurface
            environment. Each state sets water quality baselines for closure of fishing areas
            by fish/shellfish category, and EPA’s water quality data contributed to the State of
            Louisiana’s decision to close certain fishing areas.

            During the Enbridge oil spill, EPA provided the results of its monitoring and
            sampling to local agencies. Local officials then made decisions regarding the
            health and safety of the affected communities. EPA’s air monitoring after the
            Enbridge oil spill showed one chemical, benzene, at a level of potential health
            concern. Based on these concerns, the local health department issued a voluntary
            evacuation notice for people living in the most highly impacted areas. In addition,
            EPA’s surface water samples provided information on oil-related chemicals found
            in Talmadge Creek and the Kalamazoo River. Based on results of water sampling,
            state and local agencies issued a ban on surface water activities, including
            swimming, wading, fishing, boating, canoeing, and kayaking.

            EPA Communicated With Impacted Communities

            EPA made environmental data available to the public. EPA utilized various media
            to disseminate the information. EPA used such tools as Google Earth, Facebook,
            and Twitter to communicate with the public. The results and the interpretation of
            all data collected by EPA were posted on its website to ensure that residents in
            affected areas had access to information about the quality of their water. EPA
            regularly updated its website with sampling results and information regarding
            health questions and ecological concerns.

            The Agency also conducted or participated in numerous press conferences. Fact
            sheets were prepared and disseminated to the public covering topics such as air,
            water and sediment quality, and the cleanup process. Additionally, EPA issued
            request for proposals totaling $300,000 in grants to further communication efforts
            in the environmental-justice-designated communities impacted by the BP oil spill.




11-P-0273                                                                                     5
            Lessons-Learned Activities Conducted by EPA

            EPA conducted various lessons-learned exercises to help evaluate the
            effectiveness of its response to both oil spill incidents. These reviews looked at a
            number of components such as communication, staffing/logistics, and the crisis
            communication plan. Lessons-learned activities included the following:

               	 Region 4 sent a blind survey to all EPA employees who worked on the BP
                  spill, regardless of their regional location. This survey focused on several
                  topic areas such as deployment, operations, communication, and data
                  management.

               	 Region 5 led a hot wash, or performance review, of its Enbridge response
                  and plans to conduct another one to obtain feedback from nonfederal
                  responders.

               	 Headquarters also completed a hot wash and developed a public
                  information officer summary of lessons learned from the BP spill.

            These lessons-learned activities should allow the Agency to identify areas of
            success, as well as areas that could be improved upon in responding to future
            emergency situations.

Agency Comments and Office of Inspector General Evaluation
            We make no recommendations in this report, and the Agency did not formally
            respond to the draft version of this report. A representative of the Office of
            Emergency Response did provide technical comments and described the report as
            a good summary of spill response, coordination, and followup actions. The
            technical comments were addressed in the final report as appropriate.




11-P-0273                                                                                          6
                             Status of Recommendations and
                               Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                               RECOMMENDATIONS                                                   BENEFITS (in $000s)

                                                                                                    Planned
 Rec.    Page                                                                                      Completion   Claimed    Agreed-To
 No.      No.                        Subject                       Status1       Action Official      Date      Amount      Amount

                              No recommendations




    1	    O = recommendation is open with agreed-to corrective actions pending
          C = recommendation is closed with all agreed-to actions completed
          U = recommendation is undecided with resolution efforts in progress




11-P-0273                                                                                                                              7
                                                                              Appendix A

                                    Distribution
Office of the Administrator 

Assistant Administrator for Solid Waste and Emergency Response 

Regional Administrator, Region 4 

Regional Administrator, Region 5 

Regional Administrator, Region 6 

Agency Followup Official (the CFO) 

Agency Followup Coordinator 

General Counsel 

Associate Administrator for Congressional and Intergovernmental Relations 

Associate Administrator for External Affairs and Environmental Education 

Audit Followup Coordinator, Office of Solid Waste and Emergency Response 

Audit Followup Coordinator, Region 4 

Audit Followup Coordinator, Region 5 

Audit Followup Coordinator, Region 6 





11-P-0273                                                                              8
